U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION


   The NMFS Review Process for the California
        Central Valley and State Water Projects’
          Biological Opinion Deviated from the
                      Region’s Normal Practice
    Final Audit Report No. STL – 17242-5-0001/July 2005




                                         Office of Audits
                                 Seattle Regional Office
July 8, 2005

MEMORANDUM FOR:                Conrad C. Lautenbacher
                               Under Secretary of Commerce for Oceans and Atmosphere and
                               NOAA Administrator

                               John J. Kelly, Jr. 

                               Deputy Under Secretary of Commerce for Oceans and Atmosphere 


                               William T. Hogarth 

                               Assistant Administrator for Fisheries          



FROM:                          Johnnie E. Frazier


SUBJECT:                       The NMFS Review Process for the California Central Valley and
                               State Water Projects’ Biological Opinion Deviated from the
                               Region’s Normal Practice
                               Final Audit Report No. STL-17242-5-0001

On October 8, 2004, in a letter to the inspectors general of the departments of Interior and
Commerce, 19 members of the U.S. House of Representatives requested a review of allegations
that Interior’s Bureau of Reclamation, “. . . in its haste to finalize water contracts in California,
has improperly undermined the required NOAA Fisheries environmental review process for the
proposed long-term Operations, Criteria, and Plan (OCAP) for the Central Valley Project (CVP)
and the State Water Project (SWP).”

Attached is our final report on our audit of the process used by the National Marine Fisheries
Service (NMFS) to develop its biological opinion during formal consultation on the long-term
operations, criteria, and plan for these projects. The objectives of our audit were to (1) identify
the review process used to issue NOAA’s October 22, 2004, opinion on the Bureau of
Reclamation’s Central Valley Project and California’s State Water Project, and (2) determine
whether NMFS—in developing the OCAP opinion—followed the consultation process for
issuing biological opinions that is defined by its policies, procedures, and normal practices. We
coordinated our work with the Interior inspector general’s office, as appropriate. The results of
Interior’s review are not included in this report.

Our review of the process leading to the October 2004 biological opinion revealed
inconsistencies between the way the OCAP consultation was initiated by the NMFS southwest
regional office and the way it initiated other consultations. Moreover, we found that the regional
office failed to comply with two significant controls in its normal review process. Our findings
in this regard were particularly troubling given NMFS' own longstanding recognition of (1) the
need to significantly improve how it handles biological opinions and (2) its own documented
efforts to identify and develop policies and internal controls to effect such improvements.
Ironically, such policies and internal controls—when followed—can serve to protect NMFS,
NOAA and their staff from charges that they acted arbitrarily or inappropriately. Undermining
the integrity of the process, as NMFS did here, exposes the agency and its employees to precisely
such criticisms.

Based on the steps discussed in NOAA’s June 15, 2005, response to our April 12, 2005, draft
report and subsequent discussions, we believe that NOAA has a foundation for developing a
workable audit action plan. In accordance with Department Administrative Order 213-5, Audit
Resolution and Follow-up, please provide us with the audit action plan addressing all of the
report recommendations within 60 days of this memorandum. If you would like to discuss the
report’s contents or the audit action plan, please call me at (202) 482-4661, or David Sheppard,
Regional Inspector General for Audits, Seattle Regional Office at (206) 220-7970.

We appreciate the general cooperation and courtesies your staff extended to us during our
review.

Attachment
U.S. Department of Commerce                                                                       Final Report STL-17242-5-0001

Office of Inspector General                                                                                           July 2005 


                                                           CONTENTS

                                                                                                                                  Page


EXECUTIVE SUMMARY ...............................................................................................................i 


INTRODUCTION .............................................................................................................................1 


OBJECTIVES, SCOPE, AND METHODOLOGY...........................................................................4 


FINDINGS AND CONCLUSIONS ..................................................................................................6 


I. 	      THE NMFS SOUTHWEST REGIONAL OFFICE DEVIATED FROM THE 

          AGENCY’S CONSULTATION INITIATION PROCESS ..................................................6 


          NOAA Response and OIG Comments ..................................................................................8 


II. 	     THE NMFS SOUTHWEST REGIONAL OFFICE DID NOT FOLLOW ITS PROCESS 

          FOR ENSURING THE QUALITY OF THE BIOLOGICAL OPINION .............................9 


          A.	        Problems Previously Identified by NMFS with Section 7 Consultations Led to 

                     Review Process That Should Have Been Followed by the Southwest Regional 

                     Office in Issuing the OCAP Opinion .........................................................................9 

          B.	        Regional Section 7 Coordinator Did Not Clear the OCAP Opinion .........................10 

          C.	        The Office of General Counsel Did Not Clear the OCAP Opinion...........................11 

          D.	        NOAA Response and OIG Comments ......................................................................13 


III.	     THERE IS NO EVIDENCE THAT A DRAFT “JEOPARDY” OPINION WAS 

          PROVIDED TO BUREAU OF RECLAMATION OFFICIALS AS ALLEGED.................15 


IV.       CONCLUSION......................................................................................................................16 


RECOMMENDATIONS...................................................................................................................17 


Appendix:            NOAA’s Response                  

U.S. Department of Commerce                                                         Final Report STL-17242-5-0001

Office of Inspector General                                                                             July 2005 


                                         EXECUTIVE SUMMARY



California’s Central Valley Project (CVP) is one of the nation's major water conservation efforts.
First undertaken by the Bureau of Reclamation in 1935, the CVP includes all federal reclamation
projects located within or diverting water from or to the watershed of the Sacramento and San
Joaquin rivers and their tributaries.

Passage of the Endangered Species Act (ESA) in 1973 required federal agencies, in consultation
with the Secretary of Commerce, to ensure that any actions they authorized, funded, or carried
out are unlikely to jeopardize the continued existence of any endangered or threatened marine
species or destroy or adversely modify critical habitats of listed marine species. As a result of
such consultations, NMFS issues its biological opinions on whether a proposed action is likely to
jeopardize the endangered or threatened species. The opinion also provides, as appropriate,
terms and conditions, and conservation recommendations to minimize or avoid adverse effects
on the species.

On March 15, 2004, the Bureau of Reclamation requested formal consultation1 with the National
Marine Fisheries Service (NMFS) on the effects of ongoing CVP operations and facilities and an
early consultation2 on the effects of future operations. On October 22, 2004, under its delegated
ESA authority, the NMFS southwest regional office issued a biological opinion on the effects of
the proposed long-term operations, criteria, and plan for the CVP in coordination with the
operations of California’s State Water Project (SWP) on federally listed endangered and
threatened salmon and steelhead and their designated habitat in accordance with Section 7 of the
Endangered Species Act. The opinion concluded that the project, as proposed, is not likely to
jeopardize the continued existence of endangered and threatened salmon and steelhead or destroy
or adversely modify critical habitat for the endangered and threatened species.

On October 8, 2004, in a letter to the inspectors general of the departments of Interior and
Commerce, 19 members of the U.S. House of Representatives requested a review of allegations
that Interior’s Bureau of Reclamation, “. . . in its haste to finalize water contracts in California,
has improperly undermined the required NOAA Fisheries environmental review process for the
proposed long-term Operations, Criteria, and Plan (OCAP) for the Central Valley Project (CVP)
and the State Water Project (SWP).” Consequently, we sought to (1) identify the review process
used to issue NOAA’s October 22, 2004, opinion on the Bureau of Reclamation’s Central Valley
Project and California’s State Water Project, and (2) determine whether NMFS—in developing
the OCAP opinion—followed the consultation process for issuing biological opinions that is
defined by its policies, procedures, and normal practices. We did not seek to determine whether
the issued opinion is scientifically sound or supportable.




1
  A formal consultation is defined as a process between NMFS and a federal agency or applicant that determines
whether a proposed federal action is likely to jeopardize the continued existence of listed species or destroy or
adversely modify designated critical habitat.
2
  Early consultation is defined as a preliminary consultation requested by a federal agency on behalf of a prospective
permit or license applicant prior to the filing of an application for a federal permit or license.


                                                          i
U.S. Department of Commerce                                                         Final Report STL-17242-5-0001
Office of Inspector General                                                                             July 2005

Our findings are as follows:

The NMFS southwest regional office deviated from the agency’s established consultation
initiation process. Contrary to the NMFS normal process, the regional office initiated the
formal consultation3 with insufficient information, rather than suspending it until the Bureau of
Reclamation provided the information. To determine whether the regional office typically
proceeded without sufficient information, we examined the administrative record for 10 other
consultations. There were no cases in which a formal consultation proceeded without sufficient
information, as occurred with the OCAP opinion. Instead, we found examples of insufficiency
letters suspending formal consultation with agencies until NMFS received the information. (See
page 6.)

The southwest regional office did not follow its process for ensuring the quality of the
biological opinion. The southwest regional office issued the region’s policies and procedures
for conducting and reviewing Section 7 consultations in October 1999 (see Flowchart 2 on
page 12). The region’s policy, in addition to its training program, met the conditions stated in
the NMFS executive board decision memorandum issued in March 1999, which was intended to
ensure the quality of biological opinions. However, the process was not followed. (See page 9.)

    •	 Previously identified problems with Section 7 consultations led to the development
       of a review process—a process that should have been followed by the southwest
       regional office in issuing the OCAP opinion. On July 28, 1995, the Assistant
       Administrator for Fisheries delegated to the regional administrators for the southwest and
       northwest regional offices the authority to conduct formal and informal consultations and
       issue biological opinions under Section 7 of the Endangered Species Act for activities
       affecting anadromous species. In September of 1997, NMFS’ Executive Board
       recommended that the 1995 delegation be reviewed prior to making a decision on
       whether to delegate Section 7 signature authority nationally. A multi-office team4 was
       established in June 1998 to evaluate and report on the Section 7 program’s effectiveness,
       efficiency, information systems and quality assurance and quality control measures. The
       team identified various concerns and concluded that the delegated programs in the
       southwest and northwest regional offices had many problems, including “debatable
       adherence to the [Endangered Species Act], regulations and national guidance.” It
       formulated a series of recommendations designed to address the problems it identified,
       which it presented to the NMFS Executive Board in February of 1999. Among other
       things, the team recommended that (1) permanent section 7 coordinators be established in
       each region no later than the end of FY1999 and (2) delegation of Section 7 authority be
       contingent upon the establishment of a regional section 7 coordinator, the establishment
       of a training program, and the development of a clear policy on interaction with the
       Office of General Counsel.
3
  According to NMFS Final ESA Section 7 Handbook, formal consultation is “initiated” on the date the request is
received, if the action agency provides all the relevant data required by 50 CFR §402.14(c). If all required data are
not initially submitted, then formal consultation is initiated on the date on which all required information has been
received.
4
  The team was comprised of staff from four of the six regions; the sustainable fisheries, habitat conservation,
protected resources, and endangered species divisions; the office of general counsel; and the U.S. Fish and Wildlife
Service.


                                                          ii
U.S. Department of Commerce                                                Final Report STL-17242-5-0001

Office of Inspector General                                                                    July 2005 



           The Executive Board agreed with the review team’s findings and recommendations and
           in March 1999 presented a decision memorandum to the NMFS Assistant Administrator
           to that effect. The Assistant Administrator noted his concurrence with all of the review
           team’s findings and recommendations on the decision memorandum. In October 1999,
           the NMFS Executive Board prepared a Section 7 Implementation Work Plan. On
           October 18, 1999, the southwest regional office’s section 7 coordinator issued a
           memorandum introducing that region’s new review process and tracking system for
           biological opinions. The memorandum specifically detailed the responsibilities of the
           new regional section 7 coordinator and the role of the Office of General Counsel in the
           review process.5 As such, the memorandum satisfied two of the three requirements for
           delegation outlined in the Section 7 Implementation Work Plan: establishing a section 7
           coordinator and developing a clear policy on interaction with the Office of General
           Counsel.

           As a primary focus of this review, we assessed whether the actions that resulted in the
           issuance of the OCAP opinion complied with the process outlined in the October
           memorandum.

           We determined that they did not. (See page 9.)

       •	 Regional section 7 coordinator did not clear the OCAP opinion. The regional
          coordinator reviews the opinion for (1) use of the best available scientific and
          commercial information, including the most recent status and trend data for each species;
          (2) adherence to national and regional policies and guidelines; and (3) presentation of
          logical arguments and discussion. She told us that she did not complete her review of the
          draft because the assistant regional administrator for protected resources “stepped in” to
          work with the lead biologist to complete the draft and then sent the draft to the Bureau of
          Reclamation for review. She also did not complete her review of the final opinion.

           The regional coordinator is normally required to sign off on the opinion, but she did not
           sign off on either the draft or final documents. In the case of the draft, the coordinator
           advised us that she did not believe the document was ready to send to the Bureau of
           Reclamation. As for the final, she reported that the assistant regional administrator sent
           the opinion out when she was away from the office conducting training on Section 7
           consultations. In any event, the coordinator also told us she would not have signed off on
           the opinion because of her belief that there is a basic disconnect between the scientific
           analysis and the conclusion.

           We asked the assistant regional administrator whether he had performed the duties of the
           section 7 coordinator. He believed that he had. In fact, he stated in an email that “In this
           case it is fair to say I assumed the responsibility of section 7 coordinator” and that he
           “. . . stepped in because the dialogue that was occurring between staff and [the section 7
           coordinator] wasn't producing a sound analysis.”


5
    The specifics of the process are outlined in Flowchart 2 on page 12.


                                                            iii
U.S. Department of Commerce                                                        Final Report STL-17242-5-0001

Office of Inspector General                                                                            July 2005 


         In addition to the required regional section 7 coordinator review as stated in the regional
         policy, the offices in the southwest region also have local section 7 coordinators located
         in the field offices. The local coordinator is expected to review opinions for clarity,
         conciseness, and logical analysis and conclusions. Unfortunately, the local coordinator
         said she was instructed by her managers to send the opinion to the regional office before
         she completed her review. (See page 10.)

    •	 The Office of General Counsel did not clear the OCAP opinion. The attorney
       assigned to the OCAP opinion did not sign off on the draft or final opinions. When we
       questioned his supervisor, the regional general counsel, we were told that his office
       reviews highly controversial or politically sensitive opinions. In fact, he used the OCAP
       consultation as a specific example of the type of opinion that should be reviewed. He
       further explained that the typical legal review process his office follows is intended to
       ensure that an opinion complies with pertinent laws, such as the Endangered Species Act
       and the Administrative Procedures Act,6 and is sufficient and defensible. He also noted
       that the reviewing attorney provides comments on drafts that “must” be addressed before
       counsel will sign off on a draft opinion. There was no evidence in the administrative
       record indicating legal review of the opinion by the regional general counsel’s office.
       The regional general counsel later confirmed that the opinion was not cleared by his
       office, although he could not explain why. (See page 11.)

We found no evidence to support the allegation that a draft “jeopardy” opinion was
previously provided to Bureau of Reclamation officials. There were allegations that a draft
“jeopardy” opinion had been issued by NMFS to the Bureau of Reclamation and was
subsequently changed to “no jeopardy” without sufficient justification. Several NMFS staff who
worked on the opinion initially told us that on August 5, 2004, a draft was handed to Bureau of
Reclamation regional staff with a transmittal letter that stated NMFS had reached a jeopardy
conclusion. However, in subsequent interviews, they were unsure whether copies of a jeopardy
draft and transmittal letter were, in fact, provided to the Bureau of Reclamation. In addition, an
investigator at the Interior inspector general’s office stated that no one that she spoke with at the
Bureau of Reclamation regarding the OCAP opinion acknowledged receiving a draft jeopardy
opinion. And finally, there was no evidence in the administrative record to support the claim that
the draft jeopardy opinion was provided to Bureau of Reclamation staff, only that a no jeopardy
draft was given to the Bureau of Reclamation for comment on September 27, 2004. (See page
15.)

                                          --------------------------------

In conclusion, by initiating the consultation with the Bureau of Reclamation without sufficient
information and failing to ensure the section 7 coordinator and general counsel reviewed and
signed off on the opinion, the assistant regional administrator circumvented key internal controls
6
  As noted in the Digest of Federal Resource Laws of Interest to the U.S. Fish and Wildlife Service
(http://laws.fws.gov/lawsdigest/admin.html#ADPRO), the Administrative Procedures Act “outlines administrative
procedures to be followed by federal agencies with respect to identification of information to be made public;
publication of material in the Federal Register; maintenance of records, including those involving certain meetings
and hearings; attendance and notification requirements for specific meetings and hearings; issuance of licenses; and
review of agency actions.”


                                                         iv
U.S. Department of Commerce                                               Final Report STL-17242-5-0001
Office of Inspector General                                                                   July 2005

established to ensure the integrity of the biological opinion. In addition, the failure to follow the
region’s Section 7 biological review process and obtain regional general counsel legal review is
contrary to the NMFS executive board’s conditions for delegated authority to conduct ESA
Section 7 consultations. Our findings in this regard were particularly troubling given NMFS'
own longstanding recognition of (1) the need to significantly improve how it handles biological
opinions and (2) its own documented efforts to identify and develop policies and internal
controls to effect such improvements. Ironically, such policies and internal controls—when
followed—can serve to protect NMFS, NOAA and their staff from charges that they acted
arbitrarily or inappropriately. Undermining the integrity of the process, as NMFS did here,
exposes the agency and its employees to precisely such criticisms. Although we did not assess
the soundness and supportability of the opinion’s conclusions, the process used by NMFS in this
instance understandably raises questions about the integrity of the OCAP opinion.

Given the importance and political sensitivities often associated with these opinions, it is
imperative that NOAA has and adheres to a meaningful and transparent process that provides the
best opportunity for a sound opinion with maximum integrity. Therefore, we are recommending
that the Under Secretary and Deputy Secretary of Commerce for Oceans and Atmosphere takes
the necessary actions to ensure that the Assistant Administrator for Fisheries

   •   (1) reviews existing delegations, policies and directives for Section 7 consultations,

       (2) develops and implements a standard national set of policies and procedures for
       Section 7 delegations, including clarifying the legal review process,

       (3) issues these policies and procedures to staff through its Policy Directives System, and

       (4) submits these policies and procedures for incorporation into the NOAA Delegations
       of Authority.

       If these actions are not completed within six months as indicated in NOAA’s response,
       all delegations to perform Section 7 consultations should be revoked until the actions are
       completed;

   •	 ensures that the NMFS regional offices follow the new policies, directives and 

      procedures for conducting Section 7 consultations; and 


   •	 objectively evaluates whether the southwest regional office’s questionable handling of
      the OCAP opinion impaired the opinion’s scientific integrity.

                                   ------------------------------------

In responding to our draft report, NOAA officials provided clarifying comments, which we have
incorporated, where appropriate, in this final report. In response to our first recommendation,
NOAA stated that the delegation of authority applicable to the OCAP opinion was issued in
1995. It expressed the belief that the southwest regional office followed the process required
under the 1995 delegation and asked that we reconsider our first recommendation. NOAA also



                                                    v
U.S. Department of Commerce                                           Final Report STL-17242-5-0001
Office of Inspector General                                                               July 2005

committed to thoroughly evaluate its Section 7 delegations, policies and directives within the
next six months. In light of that commitment, we altered the first recommendation contained in
our draft report, which focused solely on the southwest regional office. The new
recommendation tracks the actions NOAA has committed to do, and notes that if such actions are
not completed within the six month time frame used by NOAA, then all Section 7 delegations
should be revoked. We feel that such revocation is justified, given the lack of clarity with regard
to the processes that must be followed for delegated Section 7 activities. We have added a
recommendation requiring the Assistant Administrator for Fisheries to ensure that the new
policies, directives, and procedures are followed for the obvious reason that it is not simply the
creation of appropriate procedures but adherence to them that matters.

In response to our recommendation in the draft report that the Assistant Administrator evaluate
whether the southwest regional office’s handling of the OCAP opinion impaired the opinion’s
scientific integrity, NOAA stated that although NMFS does not subject its biological opinions to
peer review, it is trying to reach an agreement with an outside organization to review the science
underlying the OCAP opinion. If NOAA, in fact, obtains an outside review of the science
underlying the OCAP opinion, that action should meet the intent of our recommendation.

NOAA’s response is included in its entirety as an appendix to this report.




                                                vi
U.S. Department of Commerce                                                  Final Report STL-17242-5-0001

Office of Inspector General                                                                      July 2005 


                                           INTRODUCTION 


California’s Central Valley Project (CVP) is one of the nation's major water conservation efforts.
First undertaken by the Bureau of Reclamation in 1935, the CVP includes all federal reclamation
projects located within or diverting water from or to the watershed of the Sacramento and San
Joaquin rivers and their tributaries. It extends from the Cascade Range in the north to the plains
along the Kern River in the south. Initial features of the CVP were built primarily to protect the
Central Valley from water shortages and floods. Today, the CVP serves farms, homes, and
industry in California's Central Valley as well as major urban centers in the San Francisco Bay
Area. It is also the primary source of water for much of California's wetlands.




Figure 1: State and Federal Water Projects (the red shaded area covers the main portion of the CVP) 

Source: California Department of Water Resources (the red shared area was superimposed by OIG) 





                                                     1

U.S. Department of Commerce                                                         Final Report STL-17242-5-0001
Office of Inspector General                                                                             July 2005

Passage of the Endangered Species Act in 1973 required federal agencies, in consultation with
the Secretary of Commerce, to ensure that any actions they authorized, funded, or carried out are
unlikely to jeopardize the continued existence of any endangered or threatened marine species or
destroy or adversely modify critical habitats of listed marine species. As a result of such
consultations, NMFS issues its biological opinions on whether a proposed action is likely to
jeopardize the endangered or threatened species. The opinion also provides, as appropriate,
terms and conditions, and conservation recommendations to minimize or avoid any potential
adverse effects on the species.

In 1989, Sacramento winter run Chinook salmon, a species affected by the CVP, was listed as
threatened. In 1991, NMFS requested formal consultation7 on the project in accordance with the
act. In 1993, NMFS issued a long-term OCAP biological opinion addressing the effects of both
the CVP and State Water Project (SWP) on Sacramento winter run Chinook salmon. Since
1993, NMFS has provided six additional interim or supplemental biological opinions on the CVP
to address changes to listed species or amendments to the projects.

On July 28, 1995, the Assistant Administrator for Fisheries delegated to the NMFS southwest
regional administrator the authority to conduct formal and informal consultations and issue
biological opinions under Section 7 of the Endangered Species Act for activities that may affect
anadromous species.

On March 15, 2004, the Bureau of Reclamation requested formal consultation with NMFS on the
effects of ongoing operations and facilities and an early consultation8 on the effects of future
operations. The formal consultation included several new projects, such as the Freeport
Pumping Plant, the CVP/SWP Intertie, changes in the Central Valley Project Improvement Act
policy on water use9, implementation of Trinity River restoration flows, and long-term water
contracts. There are approximately 250 long-term water service contracts dependant upon CVP
operations. Most of these contracts are for a term of 40 years and are in the process of renewal.
Because they are interrelated with the proposed future operations, the contracts are considered
part of the project.

The early consultation included the Bureau of Reclamation and the California Department of
Water Resource’s proposed implementation of the South Delta Improvement Program. This


7
  Formal consultation is defined as a process between NMFS and a federal agency or applicant that (1) determines
whether a proposed federal action is likely to jeopardize the continued existence of listed species or destroy or
adversely modify designated critical habitat; (2) begins with a federal agency's written request and submittal of a
complete initiation package; and (3) concludes with the issuance of a biological opinion and incidental take
statement by NMFS.
8
  Early consultation is defined as a preliminary consultation requested by a federal agency on behalf of a prospective
permit or license applicant prior to the filing of an application for a federal permit or license.
9
  Section 3406 (b) (2) of the Central Valley Project Improvement Act of 1992 (CVPIA) authorized and directed the
Secretary of Interior to dedicate and manage annually eight hundred thousand acre-feet of CVP yield for the primary
purpose of implementing the fish, wildlife, and habitat restoration purposes and measures authorized by CVPIA; to
assist the State of California in its efforts to protect the waters of the San Francisco Bay/Sacramento San Joaquin
Delta Estuary; and to help to meet such obligations as may be legally imposed upon the CVP under state or federal
law following the date of enactment of CVPIA, including but not limited to additional obligations under the
Endangered Species Act.


                                                          2

U.S. Department of Commerce                                          Final Report STL-17242-5-0001
Office of Inspector General                                                              July 2005

program includes increased water pumping at Banks Pumping Plant, permanent operable barriers
in the South Delta, and a long-term environmental water account.

On October 22, 2004, under its delegated authority, the NMFS southwest regional office issued a
biological opinion to Interior’s Bureau of Reclamation and the California Department of Water
Resources on the effects of the proposed long-term operations, criteria, and plan for the CVP in
coordination with operations of the SWP on federally listed endangered and threatened salmon
and steelhead and their designated habitat in accordance with Section 7of the Endangered
Species Act. The opinion concluded that the project, as proposed, is not likely to jeopardize the
continued existence of endangered and threatened salmon and steelhead or result in the
destruction or adverse modification of designated critical habitat for the endangered and
threatened salmon and steelhead. The October 2004 OCAP opinion supercedes the previous
opinions.




                                                3

U.S. Department of Commerce                                                                     Final Report STL-17242-5-0001

Office of Inspector General                                                                                         July 2005 


                          OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to (1) identify the review process used to issue NOAA’s
October 22, 2004, opinion on the Bureau of Reclamation’s Central Valley Project and
California’s State Water Project, and (2) determine whether NMFS—in developing the OCAP
opinion—followed the consultation process for issuing biological opinions that is defined by its
policies, procedures, and normal practices. Moreover, we initially sought to determine whether
changes made by NMFS to an alleged draft jeopardy opinion that it reportedly gave to Bureau of
Reclamation staff were adequately supported and in accordance with established policies and
procedures. However, as discussed on page 15, we found no evidence that Bureau of
Reclamation staff ever received such a draft. We did not seek to determine whether the issued
opinion is scientifically sound or supportable. Flowchart 1 illustrates NMFS’ process and
timelines for initiating formal consultation and issuing a biological opinion.

                                            Action Agency determines
                                         proposed action may affect listed
                                           species or designated habitats


                                                     Action Agency
                                                  requests initiation of
                                                   formal consultation



            Within 30 days notify                                                   Consultation clock
                                       NO             Information             YES
            Agency of missing 50                                                    starts from date of
                                                      is complete?
            CFR 402.14 (c) data                                                            receipt



                                                    NMFS formulates 

                                                                                         90 Days
           Data is received and     90 Days      Biological Opinion and 

                complete                        incidental take statement 

                                                   in conjunction with

                                                    Agency/Applicant



                                              Review of draft biological
                                              opinion by Action Agency
                                               and/or applicant, if any
                           45 Days
                                              Delivery of final biological
                                              opinion and incidental take
                                              statement to Action Agency
                                                end formal consultation



                      This portion of the process is the Bureau of Reclamation’s responsibility.
                      This portion of the process is discussed on page 6.

                      The NMFS internal review process of this portion was 

                      evaluated and is discussed on page 7. We also discuss the

                      distribution of the draft opinion on page 11.

       Flowchart 1: Formal Consultation Process
       Source: Chapter 4, Final ESA Section 7 Consultation Handbook, March 1998




                                                                     4

U.S. Department of Commerce                                                           Final Report STL-17242-5-0001
Office of Inspector General                                                                               July 2005

During our audit, we met with NMFS officials at NOAA headquarters in Silver Spring,
Maryland, as well as at the NMFS regional office in Long Beach, California, and the NMFS field
office in Sacramento. We reviewed the administrative record10 of this consultation maintained in
the Sacramento field office, other pertinent documentation, and guidance on conducting formal
consultations provided to us by the section 7 coordinators at the local, regional, and headquarters
levels. We coordinated our review with the Department of Interior Office of Inspector General
to determine, among other things, whether Bureau of Reclamation staff previously received a
draft jeopardy opinion from NMFS as alleged.

We conducted this audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, dated May 22, 1980, as amended.




10
   The administrative record should document and support consultations and the resulting biological opinions.
According to the Endangered Species Consultation Handbook, the administrative record should contain the
following types of records as appropriate: (1) letters, memoranda, public notices, or other documents requesting the
consultation; (2) summaries of meetings held; (3) summaries of field trips or site inspections; (4) summaries of
personal contacts between the biologist, the federal agency, state or tribal biologists, applicant, consultant, private
citizens or interest groups; (5) summaries of telephone conversations pertaining to the consultation; (6) written
correspondence pertaining to the consultation; (7) electronic mail messages pertinent to the decision-making
process; (8) published material used in developing the consultation; and (9) other information used in the
consultation process.


                                                           5

U.S. Department of Commerce                                               Final Report STL-17242-5-0001

Office of Inspector General                                                                   July 2005 


                                FINDINGS AND CONCLUSIONS


I. 	    THE NMFS SOUTHWEST REGIONAL OFFICE DEVIATED FROM THE
        AGENCY’S CONSULTATION INITIATION PROCESS

Contrary to the NMFS normal process, the southwest regional office initiated its formal
consultation on the OCAP opinion with insufficient information, rather than suspending it until
the Bureau of Reclamation provided the information.

Regulations implementing the Endangered Species Act (ESA), found at 50 CFR §402.14 (c),
provide that

       A written request to initiate formal consultation shall be submitted to the 

       Director and shall include: (1) A description of the action to be considered; 

       (2) A description of the specific area that may be affected by the action; (3) A
       description of any listed species or critical habitat that may be affected by the
       action; (4) A description of the manner in which the action may affect any listed
       species or critical habitat and an analysis of any cumulative effects; (5) Relevant
       reports, including any environmental impact statement, environmental
       assessment, or biological assessment prepared; and (6) Any other relevant
       available information on the action, the affected listed species, or critical
       habitat.

These six items officially describe the project and its effects to NMFS for use in preparing its
biological opinion.

On March 15, 2004, the Bureau of Reclamation requested formal consultation on the Central
Valley Project and on March 22 it submitted information to NMFS to comply with the six items
in 50 CFR §402.14 (c). NMFS reviewed the material provided and determined that it did not
contain all of the information required for NMFS to properly conduct the analysis. NMFS told
the Bureau of Reclamation on March 30 that the submission was “insufficient for NOAA
Fisheries to determine the potential impacts to listed species and their designated critical habitat
associated with the proposed project and early consultation.” NMFS listed the additional
information required and asked the Bureau of Reclamation to provide it.

According to the NMFS Final ESA Section 7 Handbook,

       Formal consultation is ‘initiated’ on the date the request is received, if the action
       agency provides all the relevant data required by 50 CFR §402.14(c). If all
       required data are not initially submitted, then formal consultation is initiated on
       the date on which all required information has been received.

The handbook provides a sample insufficiency letter that states the following.

       The formal consultation process for the project will not begin until we receive
       all of the information, or a statement explaining why that information cannot be
       made available. We will notify you when we receive this additional


                                                   6

U.S. Department of Commerce                                             Final Report STL-17242-5-0001

Office of Inspector General                                                                 July 2005 


     information; our notification letter will also outline the dates within which 

     formal consultation should be complete and the biological opinion delivered on 

     the proposed action. 


In the case of the OCAP opinion, NMFS did not suspend the formal consultation until it received
all of the data required by 50 CFR 402.14(c). Instead, its insufficiency letter to the Bureau of
Reclamation stated:

     The formal consultation process for this project would not normally begin 

     until we receive all of the above information, or a statement explaining why 

     that information cannot be made available. Section 7 allows NOAA 

     Fisheries up to 90 calendar days to conclude formal consultation and an 

     additional 45 days to prepare our biological opinion . . . however, my staff has 

     been fully involved in the informal consultation process since its start and is 

     dedicated to providing you with a biological opinion earlier than the 

     allowed 135 day statutory time frame. Therefore, we will make every effort 

     to meet your requested deadline of June 30, 2004. (Emphasis added.) 


NMFS regional staff told us that they often work closely with agencies requesting information
and are typically knowledgeable about the listed species that may be affected by a project.

We could not find in the administrative record an acknowledgment from NMFS that it ever
received a final, complete, and accurate description of the project. Although NMFS regional
management stated that there was sufficient information, the information was initially deemed
insufficient. In fact, a biologist at headquarters emailed the staff of the southwest regional office
in April 2004 and informed them that some of the information in the biological assessment was
“not nearly adequate for consultation on effects to SONCC Coho.” Biologists who worked on
the project stated that they were not sure whether a final information package accurately defining
the project was ever actually received. They stated that the Bureau of Reclamation provided
several changes to the project description, even after the opinion was issued.

The fact that NMFS initiated the consultation with insufficient information complicated its
analysis of the proposed project. The assistant regional administrator acknowledged that the
Bureau of Reclamation had a hard time nailing down the project and issued numerous biological
assessments. In fact, our review of the administrative record and interviews with NMFS staff
revealed that the Bureau of Reclamation provided at least 18 amendments or clarifications to the
information package from April until October 2004—days prior to the issuance of the opinion.
Several biologists who worked on the OCAP opinion expressed frustration with all the changes,
noting that working under such conditions was like trying to hit a moving target. By initiating
the consultation in this fashion, NMFS has raised a question as to whether its analysis is based on
the best available scientific information.

To determine whether the regional office typically proceeded without sufficient information, we
examined the administrative record for 10 other consultations it had handled. In 6 of the 10
consultations, requesting agencies initially provided insufficient information. In none of the six
consultations did NMFS allow formal consultation to continue without the information. In fact,



                                                 7

U.S. Department of Commerce                                                             Final Report STL-17242-5-0001
Office of Inspector General                                                                                 July 2005

NMFS issued insufficiency letters to the agencies that suspended formal consultation until
NMFS received the information.

NOAA Response and OIG Comments

NOAA responded that neither the statute, regulations, nor the consultation handbook authorize
NMFS to delay consultation as a way of forcing the consulting agency to provide more
information. According to NOAA’s response, the regulations envision that consultation is an
iterative process allowing NMFS to ask for additional information as NMFS’ opinion
crystallizes. The response suggests that NMFS should proceed with the consultation regardless
of whether additional information is provided. They quote their handbook, which states “the
formal consultation process for the project will not begin until we receive all of the information
or a statement explaining why that information cannot be made available.” They went on to state
that in either case, the consultation should proceed. NMFS also points to an August 9, 2004,
Bureau of Reclamation letter stating that all the information requested in the insufficiency letter
had been provided.

As NOAA noted in its response, according to NMFS’ own Section 7 Consultation Handbook,
formal consultation should not begin until “we receive all of the information or a statement
explaining why that information cannot be made available.” (emphasis added) In this case,
neither event occurred: consultation began in the spring of 2004 even though all of the requested
information had not been provided and no evidence exists in the administrative record that the
Bureau of Reclamation contended that the information was unavailable. In fact, given how the
information trickled into NMFS, as stated by the Bureau of Reclamation in its letter of August 9,
2004, that information does not appear to have been unavailable.11 In addition, that letter states
the Bureau of Reclamation’s belief that the information required to initiate consultation was
provided, there is nothing in the administrative record that confirms, from NMFS’ perspective,
whether that belief is accurate or whether the information received is acceptable and sufficient.
By initiating the consultation in this fashion rather than waiting until sufficient information was
received, NMFS has raised a question as to whether its analysis is based on the best available
scientific information.

NOAA further stated that

           Had NMFS suspended consultation between March 30, 2004 and the receipt of
           the requested information on August 9, 2004, NMFS would have been able to
           extend the date for issuance of the biological opinion until November 17, 2004
           (135 days after March 30 less the suspension period). Alternatively, NMFS could
           achieve essentially the same result by negotiating an extension of the consultation
           period with the action agency. In this case, NMFS agreed on an extension of the
           consultation period and NMFS took 221 days to issue the biological opinion on
           October 22, 2004.

NOAA’s concern about the extension of the consultation period is off point. Our report does not
criticize the southwest regional office for failing to comply with the statutory and regulatory

11
     It should also be noted that the Bureau did not claim that the information was unavailable in its August 9th letter.


                                                              8

U.S. Department of Commerce                                                         Final Report STL-17242-5-0001
Office of Inspector General                                                                             July 2005

timeframes governing Section 7 consultations. Rather, it questions the office’s decision to
initiate a formal consultation prior to receiving all of the requested information or an explanation
that that information was not available.

Finally, we recognize and accept the iterative nature of the consultation process. Our concern
here is not that the Bureau provided information throughout the entire process, but with the fact
that by its own admission it did not provide the information required to initiate consultation until
June 30, 2004—months after the formal process began. As noted previously, by proceeding in
this fashion NMFS has raised a question as to whether its analysis is based on the best available
scientific information.

II. 	    THE NMFS SOUTHWEST REGIONAL OFFICE DID NOT FOLLOW ITS
         PROCESS FOR ENSURING THE QUALITY OF THE BIOLOGICAL OPINION

A. 	     Problems Previously Identified by NMFS with Section 7 Consultations Led to
         Review Process That Should Have Been Followed by the Southwest Regional Office
         in Issuing the OCAP Opinion

On July 28, 1995, the Assistant Administrator for Fisheries delegated to the regional
administrators for the southwest and northwest regional offices the authority to conduct formal
and informal consultations and issue biological opinions under Section 7 of the Endangered
Species Act for activities affecting anadromous species. Unfortunately, the delegation did not
specify any process that was to be followed in conducting such consultations.

In September of 1997, NMFS’ Executive Board recommended that the 1995 delegation be
reviewed prior to making a decision on whether to delegate Section 7 signature authority
nationally. A multi-office team12 was established in June 1998 to evaluate and report on the
Section 7 program’s effectiveness, efficiency, information systems and quality assurance and
quality control measures. The review team was specifically charged with examining the existing
Section 7 programs in the southwest and northwest regions as pilots for establishing a delegated
Section 7 program in all NMFS regions, and was told to recommend changes needed to ensure
the creation of a successful national program that meets the goals and purposes of the
Endangered Species Act.

The team identified various concerns and concluded that the delegated programs in the southwest
and northwest regional offices had many problems, including “debatable adherence to the
[Endangered Species Act], regulations and national guidance.” It found similar problems in the
nondelegated Section 7 programs. The team concluded that if NMFS’ goal was to establish a
successful delegated Section 7 program in all regions, then it must address existing program
challenges as well as new challenges that might arise when authority is delegated. It formulated
a series of recommendations designed to address the problems it identified, which it presented to
the NMFS Executive Board in February of 1999.


12
  The team was comprised of staff from four of the six regions; the sustainable fisheries, habitat conservation,
protected resources, and endangered species divisions; the office of general counsel; and the U.S. Fish and Wildlife
Service.


                                                          9

U.S. Department of Commerce                                                 Final Report STL-17242-5-0001
Office of Inspector General                                                                     July 2005

Among other things, the team recommended that (1) permanent section 7 coordinators be
established in each region no later than the end of FY1999 and (2) delegation of Section 7
authority be contingent upon the establishment of a regional section 7 coordinator, the
establishment of a training program, and the development of a clear policy on interaction with
the Office of General Counsel. Regional section 7 coordinators with expertise in ESA and
related disciplines were needed, the team concluded, because “Regional managers cannot
personally provide in-depth reviews or policy interpretation for the large number of consultations
that comprise Regional workloads.” The recommendation related to the Office of General
Counsel grew out of an “immediate need” identified by the review team to develop national
policy and guidance that defines the role of General Counsel in a delegated Section 7 program,
including establishing appropriate procedures, roles and responsibilities for GC staff during the
preparation and review of Section 7 documents.

The NMFS Executive Board agreed with the review team’s findings and recommendations and
in March 1999 presented a decision memorandum to the NMFS Assistant Administrator to that
effect. The Assistant Administrator noted his concurrence with all of the review team’s findings
and recommendations on the decision memorandum.

In October 1999, the NMFS Executive Board prepared a Section 7 Implementation Work Plan,
which was intended to assign responsibility for implementation of the review team’s
recommendations to various parties within NMFS and to establish timeframes for
implementation of the various recommendations. According to this document, the regional
administrators were responsible for (1) ensuring that each region has a regional section 7
coordinator, (2) a commitment to and resources for training, and (3) a clear policy on interaction
with General Counsel. The target date for implementation of this recommendation was
described as “immediate.”

On October 18, 1999, the southwest regional office’s section 7 coordinator issued a
memorandum introducing that region’s new review process and tracking system for biological
opinions. The memorandum specifically detailed the responsibilities of the new regional section
7 coordinator and the role of the Office of General Counsel in the review process.13 As such, it
satisfied two of the three requirements for delegation outlined in the Section 7 Implementation
Work Plan: establishing a section 7 coordinator and developing a clear policy on interaction
with the Office of General Counsel.

As a primary focus of this review, we assessed whether the actions that resulted in the issuance
of the OCAP opinion complied with the process outlined in the October memorandum. We
determined that they did not. Specifically, we found that neither the regional section 7
coordinator nor the Office of General Counsel cleared the OCAP opinion, as required by the
southwest regional office’s review process.

B.         Regional Section 7 Coordinator Did Not Clear the OCAP Opinion

As stated in the October 18, 1999, memorandum, the regional section 7 coordinator reviews the
opinion for (1) use of the best available scientific and commercial information, including the

13
     The specifics of the process are outlined in Flowchart 2 on page 12.


                                                            10

U.S. Department of Commerce                                                     Final Report STL-17242-5-0001
Office of Inspector General                                                                         July 2005

most recent status and trend data for each species; (2) adherence to national and regional policies
and guidelines, and (3) presentation of logical arguments and discussion. The regional
coordinator also ensures that the discussion throughout the document guides the reader to the
conclusion reached in the opinion.14 If the coordinator determines that major revisions to the
document are necessary, she returns it to the consulting biologist, along with a discussion of the
changes that need to be made. Once the appropriate revisions are made and Office of General
Counsel review has been completed, the coordinator signs off on the opinion.

In this particular case, the regional section 7 coordinator told us that she did not complete her
review of the draft opinion because the assistant regional administrator for protected resources
“stepped in” to work with the lead biologist to complete the draft. She stated that she did not
sign-off on the draft because she believed it was not ready to send to the action agency. The
regional coordinator also informed us that she did not review the final opinion prior to its
issuance on October 22, 2004 and that she did not clear the final because the assistant regional
administrator sent it out when she was away from the office conducting training on Section 7
consultations. She indicated that, if given the opportunity, she would not have signed off on the
opinion because of her belief that there is a basic disconnect between the scientific analysis and
the conclusion.

The assistant regional administrator informed us that “In this case it is fair to say I assumed the
responsibility of section 7 coordinator” and that he “. . . stepped in because the dialogue that was
occurring between staff and [the section 7 coordinator] wasn't producing a sound analysis.”

It should be noted that, while it is not required to do so by the October 18 memorandum, the
southwest regional office also has local section 7 coordinators who review biological opinions.
Those local coordinators are expected to review biological opinions prepared by the lead
biologists to ensure that the opinions present clear, concise, and logical analysis and conclusions.
The local coordinator involved in the OCAP opinion said she was told by her managers to send
the draft opinion to the regional office before she completed her review, and she did not review
the final.

C.      The Office of General Counsel Did Not Clear the OCAP Opinion

The Section 7 Implementation Work Plan also required a “clear policy on interaction with
General Counsel.” In response to that document, the October 1999 memorandum produced by
the southwest regional office’s regional section 7 coordinator specified a process for legal review
and clearance of all informal consultations and formal biological opinions. According to that
document, an attorney from the regional general counsel’s office is supposed to review the
relevant documents for legal, statutory, and judicial compliance and provide comments to the
regional section 7 coordinator; the regional coordinator then discusses these comments with the


14
  According to the NMFS Standards that Will Apply to Reviews of Regional Section 7 Programs for Quality
Assurance and Quality Control, standards used to prepare and review biological opinions are established by the
Administrative Procedures Act [APA; 5 USC 701 et seq], sections 7 and 10 of the Endangered Species Act of 1973,
as amended [ESA; 16 USC 1536 and 1539], and regulations promulgated to implement section 7 of the ESA [50
CFR 402].


                                                      11

U.S. Department of Commerce                                                     Final Report STL-17242-5-0001

Office of Inspector General                                                                         July 2005 



                                    Biologist
                                 formulates draft



               NO
                               Local sec. 7 coord.
                               ensures draft meets
                                NMFS standards
                                                              Does the draft present logical
                                                              analysis and conclusions? Is it
                                            YES               organized according to NMFS
                                                              guidance?
                           Draft forwarded to regional
                               sec. 7 coordinator




                                Reg. sec. 7 coord.                NO
                               ensures draft meets
                                NMFS standards                 Does the draft (1) use the best available
                                                               scientific and commercial information,
                                                               (2) use the most recently available status
                                            YES
                                                               and trend information for each species,
                                                               (3) adhere to national and SWR policies
                               Draft forwarded to
                                                               and guidelines, (4) present logical
                                general counsel
                                                               arguments and discussions, and (5) present
                                                               discussions that guide the reader to the
                                                               conclusion set out in the final section of the
                                                               opinion?
               NO             GC ensures the draft
                              meets ESA, APA, and
                              other legal standards


                                           YES
                                                               Decision-makers are
                           Regional sec. 7 coord. and          responsible and accountable
                           GC sign off on the opinion          for final consultation.


                          Reg. sec. 7 coord. forwards             Signed opinion is sent
                          opinion for management                  to action agency (ies).
                          review and signature.



                               Parts of the process that were not completed.

                              Parts of the process that were completed.

Flowchart 2: SW Region’s Internal Review Process
Source: Southwest Regional Office



                                                      12

U.S. Department of Commerce                                                        Final Report STL-17242-5-0001
Office of Inspector General                                                                            July 2005

consulting biologist, and the attorney as necessary. When the issues raised by the Office of
General Counsel have been appropriately resolved, that office will sign off on the document.

In the case of OCAP, the responsible attorney did not sign off on either the draft or final
opinions. We questioned his supervisor, the regional general counsel, about the legal review
policy and were told that highly controversial or politically sensitive opinions are reviewed by
his office. In fact, he used the OCAP opinion as a specific example of the type of opinion that
should be reviewed. He explained that his office’s review is intended to ensure that opinions
comply with pertinent laws, such as the Endangered Species Act and Administrative Procedures
Act, and are defensible. He also added that legal comments on drafts “must” be addressed before
his office will sign off on them. The regional general counsel learned from us that the OCAP
opinion had not been reviewed by his office and could not explain why. He later confirmed that
the opinion was not cleared by his office.15 He stated that except for this opinion, he is not aware
of any other opinion that has not had a waiver or been reviewed.

D.       NOAA Response and OIG Comments

Our draft report initially used criteria contained in NOAA documents related to a 2002
delegation of Section 7 authority to assess the validity of the process that resulted in the OCAP
opinion. However, in its response to that report, NOAA informed us that the 2002 delegation
was only for intra-agency delegations and that the delegation that resulted in the OCAP opinion
occurred in 1995. It further noted that an October 1999 memorandum written by the southwest
region’s section 7 coordinator set forth the review process that should have been followed for the
OCAP opinion. The response stated NOAA’s belief that the southwest regional office followed
the process required under the 1995 delegation and requested that we re-examine our findings
and recommendations using the 1995 delegation as the governing authority.

We reviewed the 1995 delegations incorporated in the NOAA Handbook, as well as the Section
7 Delegation/Program Review Report and The Executive Board Recommendations regarding
ESA Section 7 Delegation/Program Review. We accept NOAA’s position that the 1995
delegation is the appropriate one, although as we noted in the body of the report it did not specify
any process to be followed in conducting such consultations.

The confusion over the delegation of authority was due in no small part to the fact that, in our
search for criteria, we were directed by NMFS employees from NMFS headquarters to
documents associated with the 2002 delegation. While we appreciate the clarification from
NOAA, we are concerned that some NMFS employees appear to be confused on this issue.

We have also added to the report a discussion of the evolution of the process the southwest
regional office should have followed for this consultation, in light of the fact that that process




15
  In addition to the legal review required by the October memorandum, NMFS guidance provides that the general
counsel review of the draft biological opinion is a required part of the administrative record. We found no evidence
of such a review in the OCAP administrative record.


                                                         13

U.S. Department of Commerce                                           Final Report STL-17242-5-0001
Office of Inspector General                                                               July 2005

was developed to address recommendations made by a multi-office team that identified problems
with the southwest and northwest regional office’s consultations under the 1995 delegation.

                                       -----------------------

NOAA also noted that, based on the findings in our draft report, NMFS has committed within the
next six months to (1) review existing delegations, policies and directives for Section 7
consultations, (2) develop and implement a standard national set of policies and procedures for
Section 7 delegations, including clarifying the legal review process, (3) issue these policies and
procedures to staff through its Policy Directives System, and (4) submit these policies and
procedures for incorporation into the NOAA Delegations of Authority.

In light of NOAA’s commitment to thoroughly evaluate its Section 7 delegations, policies and
directives, we have altered the first recommendation contained in our draft report, which focused
solely on the southwest regional office. The new recommendation parallels the actions NOAA
has committed to do, and notes that if such actions are not completed within the six month time
frame used by NOAA, then all Section 7 delegations should be revoked. We feel that such
revocation is justified, given the lack of clarity with regard to the processes that must be
followed for delegated Section 7 activities. We have added a recommendation requiring the
Assistant Administrator for Fisheries to ensure that the new policies, directives and procedures
are followed for the obvious reason that it is not simply the creation of appropriate procedures
but adherence to them that matters. The second recommendation contained in the draft report,
now the third, remains unchanged.

                                       -----------------------

NOAA’s response also stated that the assistant regional administrator supervises the section 7
coordinators and is capable of performing the duties of that position and routinely performs that
function when the section 7 coordinator is unavailable. NOAA further noted that in July 2004,
the assistant regional administrator determined the consultation team needed assistance and
assumed the role of section 7 coordinator for this consultation.

We, however, found nothing in the administrative record indicating that change. We did find a
letter dated August 13, 2004, in the administrative record from the regional section 7
coordinator, conveying her pen and ink comments on an early draft of the opinion. It is clear that
her comments are from the perspective of a section 7 coordinator, not a “team member” as
indicated in NOAA’s response.

We discussed with the regional section 7 coordinator NOAA’s statement that the assistant
regional administrator routinely performs the role of the section 7 coordinator when the
coordinator is unavailable. She indicated that she could only recall one other notable instance
when the assistant regional administrator performed her duties: according to her recollection, the
2002 consultation on the Klamath operations was completed without her involvement or review.
She noted that since October of 2003, each field office in the southwest region has had local
section 7 coordinators who review documents before they come to the regional office.
According to the regional coordinator, since that time the local coordinators should have taken
care of the substantive aspects of the opinion in her absence. For truly routine opinions, she


                                                 14

U.S. Department of Commerce                                             Final Report STL-17242-5-0001
Office of Inspector General                                                                 July 2005

noted, she has waived the regional review, which would mean that the assistant regional
administrator would have no reason to act on her behalf.

Given that the Klamath opinion and the OCAP opinion are two complex, controversial reviews,
it is troubling that neither the regional section 7 coordinator nor the local coordinator were able
to perform their duties in those cases.

                                        -----------------------

Regarding legal review, our draft report contained statements attributed to the attorney who was
supposed to have reviewed the OCAP opinion as to why he did not review that opinion.
NOAA’s response states that “[t]he responsible attorney does not recall making the comments as
reported.”

The response noted that the southwest regional office’s practice is to give the General Counsel
for the Southwest Region the opportunity to review each biological opinion at the final review
and clearance stage. GCSW discusses the need for review with the section 7 coordinator in a
face-to-face meeting on every SWR opinion. This usually occurs after the opinion has been
completed but before it is signed. After this discussion, GCSW often “waives” further review.
Alternatively, GCSW will review the opinion and “clear” it before signature. GCSW generally
only reviews opinions that present a relatively high litigation risk or are controversial or
complex. As such, GCSW only normally reviews a very small percentage of the consultations
conducted by the SWR.

NOAA notes that the responsible attorney gave oral advice on a draft of the opinion to the
regional coordinator and the ARA, which he followed up with written advice in the form of one
or more e-mails. The response also states that, while the opinion was not required to undergo
legal review, the regional administrator did discuss the consultation with the office of General
Counsel.

With regard to the disputed statements attributed to the regional attorney, all three auditors who
participated in the interview with the attorney have consistent recollections of and detailed
working papers documenting the conversation. While we stand by the statements in our draft
report, we have removed them from the final version so that the focus of the section will be on
the critical, undisputed point, which is that this extremely complex, controversial opinion was
not cleared by the Office of General Counsel. It is also important to highlight that in our
meetings, even the regional counsel conceded that “except for this opinion, he is not aware of
any other opinion that has not had a waiver or been reviewed.”


III.	   THERE IS NO EVIDENCE THAT A DRAFT “JEOPARDY” OPINION WAS
        PROVIDED TO BUREAU OF RECLAMATION OFFICIALS AS ALLEGED

Initially, our third objective was to determine whether any changes made by NMFS to a draft
jeopardy OCAP opinion reportedly given to Bureau of Reclamation staff were adequately
supported and in accordance with established policies and procedures. We included this as an



                                                  15

U.S. Department of Commerce                                             Final Report STL-17242-5-0001
Office of Inspector General                                                                 July 2005

objective because there were allegations that a draft jeopardy opinion had been issued by NMFS
and was subsequently changed to no jeopardy without sufficient justification.

Several NMFS staff who worked on the opinion initially told us that on August 5, 2004, Bureau
of Reclamation regional staff received a partial draft with a transmittal letter stating NMFS had
reached a jeopardy conclusion for the continued existence of Sacramento River winter run
Chinook salmon, and Central Valley steelhead. In subsequent interviews, these same staff stated
they were unsure whether a copy of the jeopardy draft and transmittal letter were provided to the
Bureau of Reclamation. In addition, an investigator at the Interior inspector general’s office
stated that no one that she spoke with at the Bureau of Reclamation regarding the OCAP opinion
acknowledged receiving a draft jeopardy opinion. Although the administrative record contained
a copy of the August 5 jeopardy draft and transmittal letter, it held no evidence to support the
claim that these documents were actually provided to Bureau of Reclamation staff. The record
only documented delivery to the Bureau of Reclamation of a September 27, 2004, “no jeopardy”
draft.


IV.    CONCLUSION

Although the southwest regional office has processes in place to ensure projects meet the
requirements of the Endangered Species and Administrative Procedures acts, it deviated from
them. Specifically, (1) the regional office initiated the consultation without sufficient
information, and (2) neither the regional section 7 coordinator nor the office of general counsel
cleared the opinion. By failing to ensure review and sign-off by the coordinators and counsel,
the assistant regional administrator for protected resources bypassed key internal controls over
the integrity of the biological opinion. In addition, the regional staff’s failure to follow their own
review and approval processes is contrary to the NMFS executive board’s conditions for
delegated authority to conduct ESA Section 7 consultations. Our findings in this regard were
particularly troubling given NMFS' own longstanding recognition of (1) the need to significantly
improve how it handles biological opinions and (2) its own documented efforts to identify and
develop policies and internal controls to effect such improvements. Ironically, such policies and
internal controls—when followed—can serve to protect NMFS, NOAA and their staff from
charges that they acted arbitrarily or inappropriately. Undermining the integrity of the process,
as NMFS did here, exposes the agency and its employees to precisely such criticisms. Although
we did not assess the soundness and supportability of the OCAP opinion’s conclusions, the
process used by NMFS in this instance raises questions about the integrity of that OCAP opinion.

Given the importance and political sensitivities often associated with these opinions, it is
imperative that NOAA has and adheres to a meaningful and transparent process that provides the
best opportunity for a sound opinion with maximum integrity




                                                 16

U.S. Department of Commerce                                           Final Report STL-17242-5-0001

Office of Inspector General                                                               July 2005 


                                   RECOMMENDATIONS



We recommend that the Under Secretary and Deputy Under Secretary of Commerce for Oceans
and Atmosphere take the necessary actions to ensure that the Assistant Administrator for
Fisheries

   1. (a) reviews existing delegations, policies and directives for Section 7 consultations,

       (b) develops and implements a standard national set of policies and procedures for
       Section 7 delegations, including clarifying the legal review process,

       (c) issues these policies and procedures to staff through its Policy Directives System, and

       (d) submits these policies and procedures for incorporation into the NOAA Delegations
       of Authority.

       If these actions are not completed within six months as indicated in NOAA’s response,
       all delegations to perform Section 7 consultations should be revoked until the actions are
       completed;

   2.	 ensures that the NMFS regional offices follow the new policies, directives and 

       procedures for conducting Section 7 consultations; and 


   3.	 objectively evaluates whether the southwest regional office’s questionable handling of
       the OCAP opinion impaired the opinion’s scientific integrity.




                                               17

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 


                                                Appendix
U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

U.S. Department of Commerce   Final Report STL-17242-5-0001

Office of Inspector General                       July 2005 

